;k

ORIGINAL
CD

fc- g

FILED
AUG 1 0 2021

NO.

OFFICE OF THE CLERK
^WREME COURT l l«

_
IN THE
SUPREME COURT OF THE UNITED STATES

ALBERT MIKLOS KUN,
Petitioner,
v.

STATE BAR OF CALIFORNIA
FRANCHISE TAX BOARD
Respondents.
On Petition for Writ of Certiorari to the United,
States Court of Appeal for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

Albert M. Kun
517 Green Street
San Francisco, CA 94133
(415) 362*4000
In Pro Se

QUESTIONS PRESENTED FOR REVIEW

1. Whether the approximately $40,000 fine assessed by the State Bar is an
excessive fine under Timbs v. Indiana 586 U.S.—(2019) for a $460-financial
violation.
2. Whether the Court of Appeal and the District Court violated a pro se
litigant’s due-process right under the Fifth and Fourth Amendments by
failing to grant him a hearing over the entire appeal period when recent
Supreme Court cases and statutory construction were involved in a
bankruptcy case.
3. Whether the district Court acted prejudicially in dismissing Petitioner’s
appeal pursuant to Federal Rules of Bankruptcy Procedure 8009 in violation
of AMG Capital Management LLC v. FTC 19-508 April 22, 2021.

ii

LIST OF ALL PARTIES TO THIS PROCEEDING
ALBERT MIKLOS KUN, Petitioner, In Pro Se and In Forma Pauperis
STATE BAR OF CALIFORNIA, Respondent
FRANCHISE TAX BOARD OF THE STATE OF CALIFORNIA, Respondent

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED
LIST OF ALL PARTIES TO THE PROCEEDING

l

n

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

IV

INTRODUCTION

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY AUTHORITIES

2

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE PETITION

9

CONCLUSION

10

APPENDICES
APPENDIX “A” - Order Denying Rehearing
APPENDIX “B” - MEMORANDUM
APPENDIX “C” - Petition Advising Clerk
APPENDIX “D” - Order Dismissing Appeal by District Court
APPENDIX “E” _ Order of dismissal by Bankruptcy Court
APPENDIX “F” _ Adversary Complaint in Bankruptcy Court

iv

TABLE OF AUTHORITIES
CASES
Timbs v. Indiana
139 S. Ct 682 (2019)
AMC Capital Management v. FTC
19-508 April 22, 2021
In Re Findley
249 F. 3d 987 (9th Cir. 2001)
U.S. CONSTITUTION
U.S. CONST. AMEND. IV,
U.S. CONST. AMEND. V,
' U.S. CONST. AMEND. VIII
U.S. CODE 105(a)
CODES AND STATUTES
Federal Rules of Bankruptcy Procedure 8009

1

INTRODUCTION
This Petition is a continuation of Petitioner's No. 17-6693 and No. 18-7911 and
the PETITION FOR STAY PENDING FILING PETITION FOR WRIT OF
CER1 1GRARI SUBMITTED TO THE Honorable Elena Kagan, Associate Justice
of the Supreme Court of the United States on June 18, 2021.
OPINIONS BELOW
(See page la)

JURISDICTION
This Petition is filed pursuant to Supreme Court Rule 13(3) which states in
pertinent part:
But if a petition for rehearing is timely filed in the lower court by
any party, or if the lower court appropriately entertains an untimely
petition for rehearing or sua sponte considers rehearing, the time to file the
petition for a writ of certiorari for all parties (whether or not they requested
rehearing or joined in the petition for rehearing) runs from the date of the
denial of rehearing or, if rehearing is granted, the subsequent entry of
judgment."

:

la

OPINIONS BELOW
1. The Order denying Appellant’s petition for panel rehearing and petition for
rehearing en banc dated May 26, 2021. is APPENDIX “A”.
2. The unveported MEMORANDUM decision of the Ninth Circuit filed
February 21, 2021 is APPENDIX “B”.
3. Letter brief dated April 29, 2021 advising the Ninth Circuit of AMG Capital
Management v. FTC is APPENDIX “C”.
4. Order Dismissing Appeal in the District Court dated December 16, 2019 is

;,

APPENDIX “D”.
5. Order Dismissing Appeal in Bankruptcy Court is APPENDIX “E”.
6. Adversary Complaint in Bankruptcy Court dated June 4, 2019 is
/•

.*
■v.
v
ft

?

APPENDIX “F\

2

The Order of the Ninth Circuit on May 26, 2021 rehearing is attached as Appendix
“A”. This Petition is filed before August 4, 2021.
This Court also has jurisdiction because Petitioner is a member of the Bar of
this Court.
CONSTITUTIONAL AND STATUTORY AUTHORITIES
Constitution of the United States of America, 1789(rev. 1992)
Amendment VIII
“Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.”
Amendment V
“No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand Jury,
except in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger! nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb! nor
shall be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of law! nor shall
private property be taken for public use, without just compensation.”
Amendment XIV, Section V“All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States! nor
shall any state deprive any person of life, liberty, or property, without due
process of law! nor deny to any person within its jurisdiction the equal
protection of the laws.”
11 USC 105(a)
“The court may issue any order, process, or judgment that is necessary or
appropriate to carry out the provisions of this title. No provision of this title providing for
the raising of arfissue by a'party'in'interest'shalTbe-construed-to-preclude-tbe-eeurt-fr-onv

3

sua sponte, taking any action or making any determination necessary or appropriate to
enforce or implement court orders or rules, or to prevent an abuse of process.”
Federal Rules of Bankruptcy Procedure 8009

(a) Designating the Record on Appeal; Statement of the Issues.
(1) Appellant.
(A) The appellant must file with the bankruptcy clerk and serve on the appellee a designation of
the items to be included in the record on appeal and a statement of the issues to be presented.
(B) The appellant must file and serve the designation and statement within 14 days after:
(i) the appellant's notice of appeal as of right becomes effective under Rule 8002; or
(ii) an order granting leave to appeal is entered.
A designation and statement served prematurely must be treated as served on the first day on
which filing is timely.
(2) Appellee and Cross-Appellant. Within 14 days after being served, the appellee may file with
the bankruptcy clerk and serve on the appellant a designation of additional items to be included
in the record. An appellee who files a cross-appeal must file and serve a designation of additional
items to be included in the record and a statement of the issues to be presented on the cross­
appeal.
(3) Cross-Appellee. Within 14 days after service of the cross-appellant's designation and
statement, a cross-appellee may file with the bankruptcy clerk and serve on the cross-appellant a
designation of additional items to be included in the record.
(4) Record on Appeal. The record on appeal must include the following:
• docket entries kept by the bankruptcy clerk;
• items designated by the parties;
• the notice of appeal;
• the judgment, order, or decree being appealed;
• any order granting leave to appeal;
»-any-certification required for a direct appeal to the court of appeals;

4

• any opinion, findings of fact, and conclusions of law relating to the issues on appeal, including
transcripts of all oral rulings;
• any transcript ordered under subdivision (b);
• any statement required by subdivision (c); and
• any additional items from the record that the court where the appeal is pending orders.
(5) Copies for the Bankruptcy Clerk. If paper copies are needed, a party filing a designation of
items must provide a copy of any of those items that the bankruptcy clerk requests. If the party
fails to do so, the bankruptcy clerk must prepare the copy at the party's expense.
(b) Transcript of Proceedings.
(1) Appellant's Duty to Order. Within the time period prescribed by subdivision (a)(1), the
appellant must:
(A) order in writing from the reporter, as defined in Rule 8010(a)(1), a transcript of such parts of
the proceedings not already on file as the appellant considers necessary for the appeal, and file a
copy of the order with the bankruptcy clerk; or
(B) file with the bankruptcy clerk a certificate stating that the appellant is not ordering a
transcript.
(2) Cross-Appellant's Duty to Order. Within 14 days after the appellant files a copy of the
transcript order or a certificate of not ordering a transcript, the appellee as cross-appellant must:
(A) order in writing from the reporter, as defined in Rule 8010(a)(1), a transcript of such
additional parts of the proceedings as the cross-appellant considers necessary for the appeal, and
file a copy of the order with the bankruptcy clerk; or
(B) file with the bankruptcy clerk a certificate stating that the cross-appellant is not ordering a
transcript.
(3) Appellee's or Cross-Appellee's Right to Order. Within 14 days after the appellant or cross­
appellant files a copy of a transcript order or certificate of not ordering a transcript, the appellee
or cross-appellee may order in writing from the reporter a transcript of such additional parts of
the proceedings as the appellee or cross-appellee considers necessary for the appeal. A copy of
the order must be filed with the bankruptcy clerk.
(4) Payment. At the time of ordering, a party must make satisfactory arrangements with the
reporter for paying the cost of the transcript.

5

(5) Unsupported Finding or Conclusion. If the appellant intends to argue on appeal that a finding
or conclusion is unsupported by the evidence or is contrary to the evidence, the appellant must
include in the record a transcript of all relevant testimony and copies of all relevant exhibits.

(c) Statement of the Evidence When a Transcript is Unavailable. If a transcript of a hearing or
trial is unavailable, the appellant may prepare a statement of the evidence or proceedings from
the best available means, including the appellant's recollection. The statement must be filed
within the time prescribed by subdivision (a)(1) and served on the appellee, who may serve
objections or proposed amendments within 14 days after being served. The statement and any
objections or proposed amendments must then be submitted to the bankruptcy court for
settlement and approval. As settled and approved, the statement must be included by the
bankruptcy clerk in the record on appeal.
(d) Agreed Statement as the Record on Appeal. Instead of the record on appeal as defined in
subdivision (a), the parties may prepare, sign, and submit to the bankruptcy court a statement of
the case showing how the issues presented by the appeal arose and were decided in the
bankruptcy court. The statement must set forth only those facts alleged and proved or sought to
be proved that are essential to the court's resolution of the issues. If the statement is accurate, it—
together with any additions that the bankruptcy court may consider necessary to a full
presentation of the issues on appeal—must be approved by the bankruptcy court and must then
be certified to the court where the appeal is pending as the record on appeal. The bankruptcy
clerk must then transmit it to the clerk of that court within the time provided by Rule 8010. A
copy of the agreed statement may be filed in place of the appendix required by Rule 8018(b) or,
in the case of a direct appeal to the court of appeals, by F.R.App.P. 30.
(e) Correcting or Modifying the Record.
(1) Submitting to the Bankruptcy Court. If any difference arises about whether the record
accurately discloses what occurred in the bankruptcy court, the difference must be submitted to
and settled by the bankruptcy court and the record conformed accordingly. If an item has been
improperly designated as part of the record on appeal, a party may move to strike that item.
(2) Correcting in Other Ways. If anything material to either party is omitted from or misstated in
the record by error or accident, the omission or misstatement may be corrected, and a
supplemental record may be certified and transmitted:
(A) on stipulation of the parties;
(B) by the bankruptcy court before or after the record has been forwarded; or
(C) by the court where the appeal is pending.

6

(3) Remaining Questions. All other questions as to the form and content of the record must be
presented to the court where the appeal is pending.
(f) Sealed Documents. A document placed under seal by the bankruptcy court may be designated
as part of the record on appeal. In doing so, a party must identify it without revealing
confidential or secret information, but the bankruptcy clerk must not transmit it to the clerk of
the court where the appeal is pending as part of the record. Instead, a party must file a motion
with the court where the appeal is pending to accept the document under seal. If the motion is
granted, the movant must notify the bankruptcy court of the ruling, and the bankruptcy clerk
must promptly transmit the sealed document to the clerk of the court where the appeal is
pending.
(g) Other Necessary Actions. All parties to an appeal must take any other action necessary to
enable the bankruptcy clerk to assemble and transmit the record.
(Added Apr. 25, 2014, eff. Dec. 1, 2014.)
STATEMENT OF THE CASE
In November, 2015, Petitioner filed for Chapter 11 protection to prevent the eviction of
Petitioner and his mates from 381 Bush Street, Suite #200, San Francisco, CA 94104, where they
had practiced continuously for 30 years. Subsequently, the State Bar commenced three (3)
proceedings against Petitioner over attorney fee disputes. At the hearing level of the State Bar
Court, Petitioner won one case and lost two. He appealed the two lost cases to the State Bar
Appellate Department, and the Appellate Dept, granted all disputed fees to Petitioner save a
$460-filing fee to the San Francisco Superior Court. That fee is the subject of these proceedings.
Meanwhile, the bankruptcy case continued; it was converted to Chapter 7, and Petitioner
was discharged on June 30, 2018.
Subsequently, Petitioner was disbarred by the California Supreme Court and fined nearly
$40,000 (APPENDIX “D”). When the Franchise Tax Board, acting as a collection agency for the
State Bar, commenced proceedings against Petitioner, he reopened the bankruptcy case and filed
an adversary complaint against both the State Bar and the Franchise Tax Board (APPENDIX
“F”). On page 3, par. 13, Petitioner claimed that pursuant to Timbs v. Indiana U.STSupreme CE7

7

(April 2019) the nearly $40,0000 fine was excessive on a $460-financial mistake, arguing that
“The Franchise Tax Board may not enforce the subject penalties that are unconstitutionally
excessive.” (And, for someone living on Social Security benefits in San Francisco in 2021, a
$40,000-penalty is indeed unconstitutionally excessive!)
The Bankruptcy Court summarily dismissed the complaint (APPENDIX “E”). While the
bankruptcy court as an Article I Court cannot rule on the constitutionality of an issue, it certainly
is entitled to issue findings of fact and conclusions of law for the District Court.
On appeal to the District Court Petitioner again claimed the unconstitutionality of the
fine; however, the district Court dismissed the appeal without a hearing (APPENDIX “D”). The
District Court is an Article III Court, and this was the first chance for a court to consider the
issue of the unconstitutionality of the fine. The $40,0000 designated as “costs” are really “fines”;
and that is the reason that In re Findley (APPENDIX “D”, page 1, line 8) held them nondischargeable. If they were categorized as costs they would be dischargeable under previous
cases. The State Bar spent several years to convince the California Legislature to change the
wording of the statute to fines, so that they would be non-dischargeable.
On appeal to the Ninth Circuit, the Ninth Circuit failed to follow the court ruling in AMC
Capital dispute the fact that it was a Ninth Circuit case and the court’s ruling was unanimous.
The District Court’s ruling (APPENDIX “D”) at page2, was not based on the Court’s
inherent power, nor were motions to dismiss filed by the appellees; it was based on Federal
Rules of Bankruptcy Procedure § 8009. However, a clear reading of § 8009 merely sets forth
time limits, but does not provide for dismissal. AMC Capital says the must strictly follow what
the statute and Rules provide for, and cannot add remedies to it.

8

A fair reading of § 8009 does not even place the responsibility for record
preparation on the appellant. Section 5 states: “If paper copies are needed, a party filing a
designation of items must provide a copy of any of those items that the bankruptcy clerk
requests. If the party fails to do so, the bankruptcy clerk must prepare the copy at the party's
expense.”
And finally, at paragraph (g), the Rule states: “All parties to an appeal must take any
other action necessary to enable the bankruptcy clerk to assemble and transmit the record.”
Thus, the record preparation is a joint project of the parties. The Rule does not provide
for dismissal and the Court of Appeal should have followed AMC Capital. Petitioner again
reminded the Court (APPENDIX “C”) of the “excessiveness” issue, but the Ninth Circuit
ignored it (APPENDIX “B”).
The Ninth Circuit likewise ignored AMC Capital Management v. FTC despite the fact
that Petitioner brought the case to the Court’ attention [APPENDIX “C”]. Amici also brought it
to the Court’s attention.
Thus, over a period of almost two (2) years, involving two appeals and two reconsider­
ations, from August, 2019 to May, 2021, the appellate courts of the Ninth Circuit have failed to
provide a hearing for Petitioner over a constitutional issue first raised on June 4, 2019.
Due process provides for a fair hearing; here, there was no hearing. The Ninth Circuit
conducted hearings during COVID-19, and during the District Court appeal, prior to December
2019, COVID-19 was still in Wuhan and normal hearings were conducted.
Petitioner’s request for rehearing and rehearing en banc has been denied (APPENDIX
“A”).

9

REASONS FOR GRANTING THE PETITION
Petitioner first raised the issue of excessive fines and this Court’s holding in Timbs v.

f fas'

Indiana 586 U.S.

(2019) to the Bankruptcy Court on June 4, 2019 (APPENDIX

page 3,

par. 13). Petitioner recognized that the bankruptcy court is an Article I Court and thus cannot
hold a statute or rule unconstitutional. The Bankruptcy Court summarily dismissed complaint
based on In re Findley.
The District Court, however as an Article III Court, is entitled to rule on the
constitutionality of a rule; thus, Petitioner raised the issue again in that court. Again, while
recognizing the constitutional issue, it ruled against Petitioner without a hearing.
By the time Petitioner’s appeal reached the Court of Appeal, this court handed down its
unanimous decision in AMG Capital Management LLC v. FTC 19-508, filed on April 22, 2021,
reversing the Ninth Circuit. Petitioner immediately notified the Clerk of the Ninth Circuit of the
decision (see APPENDIX “ “). What this court said in AMG Capital is that courts cannot read
into a statute a relief that is not expressly included in the statute. Federal Rule of Bankruptcy
Procedure § 8009 sets forth certain time limits in filing records, but nowhere in the
Rule is there any sanction mentioned for its violation. Yet, that is exactly what the
District Court determined in ruling against Petitioner despite the holding of AMG
Capital.
FRBP § 8009 is a frequently used rule throughout the United States in every
federal court in bankruptcy matters.' thus, its exact interpretation is of great
importance to the Bankruptcy Bar.
Similarly, in light of the fact that this Court for the first time has applied the
Eighth Amendment’s excessive

10

importance in all fifty states and the District of Columbia bar to establish what will
be an excessive fine against attorneys in disciplinary cases.
The Court’s jurisdiction is extended by due process guaranteed under the
Fifth and Fourteenth Amendments to the Constitution to a fair and complete
hearing and a chance to appeal. Here, the only hearing was in the Bankruptcy
Court, but with none in the District Court or in the Ninth Circuit. A chance to
appeal to this Court, such as this petition, is most important because it is a means
to cure the defects in any other due-process violation. The Ninth Circuit ruled on a
controlling issue in direct opposition to the ruling of this Court. The issue was of
nationwide importance in that uniformity in bankruptcy matter has always been
the court’s instruction.
CONCLUSION
Petitioner respectfully requests that the Court reduce the approximately
$40,000 fine to $1840 (or 4 X $460) pursuant to 11 U.S.C. 105(a). The multiplier 4
comes from the late Justice Scalia, in a punitive judgment case.
(C? (

QjJUM /*aU*«*

